No.

 

IN THE

Supreme Court of the Anited States

OLIVER LEE WHITE,
Petitioner,

Vv.
UNITED STATES OF AMERICA,

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit
CERTIFICATE OF SERVICE

I, Jaclyn L. DiLauro, a member of the Bar of this Court, hereby certify that
on this 6th day of September, 2019, I have served the enclosed application to stay
the mandate of the United States Court of Appeals for the Fourth Circuit on each
party to the above proceeding or that party's counsel, and on every other person
required to be served, by depositing an envelope containing the above document in
the United States mail, properly addressed to each of them and with first-class
postage prepaid. The names and addresses of those served are:

NOEL J. FRANCISCO

SOLICITOR GENERAL OF THE UNITED STATES

UNITED STATES DEPARTMENT OF JUSTICE

950 Pennsylvania Avenue, N.W.

Room 5616

Washington, D.C. 20530-0001

Counsel for Respondent
I further certify that all parties required to be served have been served.

= 2. L. DrLauro

ASSISTANT FEDERAL PUBLIC DEFENDER
OFFICE OF THE FEDERAL PUBLIC DEFENDER
EASTERN DISTRICT OF NORTH CAROLINA
150 Fayetteville St., Suite 450

Raleigh, N.C. 27601

(919) 856-4236

jackie_dilauro@fd.org

Counsel for Petitioner
